No. 19-840

 

IN THE

Supreme Court of the Gnited States

THE STATES OF CALIFORNIA, COLORADO,
CONNECTICUT, DELAWARE, HAWAII, ILLINOIS, Iowa,
MASSACHUSETTS, MICHIGAN, MINNESOTA, NEVADA,

NEW JERSEY, NEW YORK, NORTH CAROLINA, OREGON,
RHODE ISLAND, VERMONT, VIRGINIA, AND
WASHINGTON, ANDY BESHEAR, THE GOVERNOR OF
KENTUCKY, AND THE DISTRICT OF COLUMBIA,

Petitioners,
v.

THE STATE OF TEXAS, et al,
Respondents.
On Petition for a Writ of Certiorari to the

United States Court of Appeals
for the Fifth Circuit

MOTION FOR LEAVE TO FILE
AMICI CURIAE BRIEF AND
AMICI CURIAE BRIEF OF
33 STATE HOSPITAL ASSOCIATIONS

IN SUPPORT OF PETITIONERS

CERTIFICATE OF COMPLIANCE
As required by Supreme Court Rule 33.1(h), I certify that the amici curiae brief contains
5,188 words, including the appendix listing the description of individual amici and

excluding the parts of the document that are exempted by Supreme Court Rule 33.1(d).

The motion contained within this publication has 253 words.

I declare under penalty of perjury that the foregoing is true and correct.

Executed on January 15, 2020.

ub

Colin Casey Hogan
Wilson-Epes Printing Co., Inc.

  
